                                                                         United States Department of State
                                                                         and th e Broadcasting Board of Governors

                                                                         Office of Inspector General



                                                                                             AUG 	29 2011


MEMORANDUM

TO:               MED - Dr. Thomas Yun

FROM:             OIG - Harold W.       GeiseV/f11.Jl
SUBJECT:          Report on Audit Survey ofReimbursement to the Department ofState for
                  Overseas Hospitalizations (AUDIHCI-II -43)

The Office ofinspector General (OIG) conducted an audit survey of the Department of State's
(Department) process to collect employee reimbursement for overseas hospitalizations. The
specific objective of the survey was to determine whether internal controls were in place and
were being implemented to ensure that insurance payments for medical services rendered for
overseas hospitalizations were properly reimbursed to the Department.

OIG determined that expenditures for overseas hospitalizations for FY S 2004- 2008 1 averaged
approximately $5.4 million while reimbursements to the U.S. Government averaged
$4.8 million, or 89 percent of the annual costs. Consequently, the net "cost" to the Government
for the hospitalizations was approximately $600,000 per year-some of this amount may yet be
recouped. OIG found that Office of Medical Services (MED) medical claim files lacked
sufficient documentation to determine whether outstanding umeimbursed balances were the
responsibility of the Department or the employees hospitalized. As a result, for the period of
FY s 2004-2008 , the Department wrote off' $188,500 of medical accounts receivable, with
another $402,366 remaining open and unresolved. Beginning in FY 2009, the Department
implemented actions to ensure that medical accounts receivable were collected in a timelier
manner.

During its audit survey, OIG found the following:

      • 	 The Foreign Affairs Manual (F AM) and other guidance pertaining to reimbursement for
          overseas hospitali7..ations were open to interpretation and were inconsistent or ambiguous
          because updates to specific individual sections of the FAM or other guidance was not
          reflected in other sections or guidance related to the same issues.



1 Because claims can be fi led for up to 2 years subsequent to the hospitalization, FY 2008 was the last full year for
whieh all claims wou ld have been expected to be liled and paid at the time ofOIG 's audit su rvey.
24 FAM 495a, "Write Off of Debt," states, HA write-off is an accounting procedure that resu lts in reporting a debt or
receivable as having no value on the agency' s accounting and financial reports."

                                                    I
                                               UNCLASSIFIED
                                              UNCLASSIFIED 



    • 	 MED determined the reasonableness of insurance reimbursement using a standard for
        reimbursements that was not formalized and that was considerably less than the actual
        reimbursement rates because the standard was not based on actual historical averages.
    • 	 Employees were not required to reimburse the Department for copayments because MED
        did not consider the copayment amounts worth pursuing and pursuing the copayments
        was not authorized by the FAM.

As a result of these conditions, the cost to the Department for overseas hospitalizations could be
more than necessary.

orG made recommendations for MED to clarify existing guidance to eliminate contradictions
and ambiguity; analyze historical data andlor current insurance policies to establish an expected
target rate for reimbursements for overseas hospitalization expenditures; and determine whether
the Department has the authority to collect copayments for overseas hospitalizations from
employees and, if it does have the authority, develop and implement policies and procedures to
collect the eopayments.

orG provided a draft of this report to MED, the Bureau of Resource Management (RM), and the
Office of the Legal Adviser in June, 2011. In its August 20 11 response (see Attachment C),
MED agreed with orG ' s three recommendations, and orG considers all the recommendations
resolved. They will remain open pending review and acceptance of documentation showing that
they have been implemented. In its July 2011 response (see Attachment D), RM did not
comment on the recommendations. However, it provided replacement language pertaining to the
process for recovering medical accounts receivable that orG has incorporated into the report.
The Office of the Legal Adviser did not provide a response to OIG. Management's comments
and OlG's replies are presented after each recommendation.

                                               Background

Under the Department's Medical and Health Program, the Department is the secondary payer,
that is, it pays residual charges not covered by the employee's health insurance, for hospital
charges and related medical services for Department employees and their eligible family
members hospitalized overseas. Because most overseas medical care providers and institutions
do not accept U.S. medical insurance, MED can authorize posts to pay the medical providers
directly and obtain insurance reimbursements from employees or their medical insurers. In
accordance with the FAM,3 the Department will not pay for employees' deductibles that are
required in the employees ' respective insurance plans. Also, if an individual is not covered by
insurance, that individual must reimburse the U.S. Government the entire amount of all medical
            .
expenses mcurre    d .4




, 16 FAM 531(2), "Limitations." (Dec. 2009)
4 16 FAM 521c, "Applicability." (July 2009)


                                                   2
                                              UNCLASSIFIED
                                            UNCLASSIFIED 


Authorizing Payment to Medical Providers and Obtaining Reimbursement From Insurers

When appropriate post medical personnel determine that an employee or an eligible family
member needs hospitalization overseas, the post submits a funding request to MED, which, if the
request is approved, provides an obligation number for funding from the MED allotment in the
Working Capital Fund.

Prior to admittance or, in the event of an emergency, after admittance, the post will have the
employee sign a Form DS-3067, Authorization for Medical Services for Employees and/or
Dependents, which is an agreement to claim health insurance reimbursement from the
employee' s health insurance, and then reimburse the Department.

Using the obligation number provided by MED, the post pays all local hospitalization charges as
the medical bills are received [rom the service providers. After a post pays the medical bills, the
bills are given to the employee for the employee to submit a claim with the bill to the insurance
provider. When reimbursement is received from the insurance provider, the employee endorses
insurance reimbursement checks to the respective embassy' s cashier. Posts have made
arrangements with some insurance providers to allow employees to assign health insurance
benefits directly to a post, after which time the insurer sends reimbursement checks directly to a
post's financial management office. Depending on the insurance company, reimbursement will
be paid for claims filed no later than from I to 2 years from the date of the medical service
provided. The employee is responsible for the entire amount of charges incurred if the employee
does not have any health insurance, ifthe employee's health insurance provider refuses to pay, or
if the employee's policy does not cover overseas hospitalizations.

Regarding documentation that posts are required to provide to MED, the FAM s states:

        The management officer at post is responsible for submitting the following
        documents to the Office of Medical Services (MED) within 60 days from the time
        of the patient' s discharge from the treating facility:
            • 	 (I) A final accounting of medical expenses paid;
            • 	 (2) A copy of Form DS-996, Medical Care at Government Expense,
                signed by the patient and the insured;
            • 	 (3) A copy of the insurance claim form; and
            • 	 (4) A copy of Form DS-3067 . .. with a signed release authorizing MED
                to review the status of claim payments and release necessary information
                related to the claim.

In its response to OIG's draft report, RM described the process related to medical accounts
receivable as follows:

        Using the information provided by the post, MED notifies the Bureau of Resource
        Management (RM) to establish an account receivable. RM then initiates a series
        of four notifications to the employee regarding reimbursement. The employee

, 16 FAM 524d, "Accountability for Payment of Medical Expenses."


                                                     3
                                           UNCLASSIFIED
                                       UNCLASSIFIED 



       can contest the existence of the debt and request an internal administrativc review
       by the Deputy Assistant Secretary for Global Financial Services or his or her
       designee. If an administrative review is completed and a determination is made
       that a valid debt exists, but the employee fails to make payment or approve
       payroll deductions, the dcbt is referred to Treasury for collection. Payroll
       deductions can only be instituted when the employee approves the deduction.

Prior Office of Inspector General Reports

OIG has issued two reports within the past 10 years that address issues related to overseas
hospitalizations:

   • 	 Review ofOverseas Medical Operations (01-HR-M-036, July 2001) - In this report, OIG
       found that the Department did not ensure complete and timely tracking of
       reimbursements for overseas hospitalizations. Employees were expected to file claims
       with their insurance providers and then reimburse the Department. The Department was
       not applying then-existing controls to ensure complete and timely reimbursement.
       Consequently, the Department had open accounts receivable of almost $1 million for FY s
       1996-1999. OIG made seven recommendations to improve the Department's
       performance in this area, all of which were subsequently closed.

   • 	 inspection ofthe Office ofMedical Services (ISP-I-06-34, June 2006) - In this report,
       OrG found that MED could be missing opportunities to identify and enhance its health
       care cost-recovery effort. OIG made one recommendation to address the issue, which
       was subsequcntly closed.

                                  Results of Audit Survey

OIG determined that expenditures for overseas hospitalizations for FYs 2004- 2008 averaged
approximately $5.4 million, while reimbursements to the U.S . Government averaged
$4.8 million, or 89 percent of the annual costs. Consequently, the net "cost" to the Government
for the hospitalizations was approximately $600,000 per year- some of this amount may yet be
recouped. MED ' s medical claim files lacked sufficient documentation to determine whether
outstanding unreimbursed balances were the responsibility of the Department or the employees
hospitalized. As a result, for the period of FY s 2004- 2008 , the Department wrote off $188 ,500
of medical accounts receivable, with another $402,366 remaining open and unresolved.
(Information on hospitalization expenditures and collections for FYs 2004-2008 is provided in
Attachment B.) Beginning in FY 2009, the Department implemented actions to ensure that
medical accounts receivable were collected in a timelier manner.

OIG found that the F AM and other guidance pertaining to reimbursement for overseas
hospitalizations are open to interpretation and are inconsistent or ambiguous because updates to
specific individual sections of the FAM or other guidance was not reflected in other sections or
guidance related to the same issues. Also, MED determined the reasonableness of insurance
reimbursement using a standard for reimbursements that was not formalized and that was
considerably less than actual reimbursement rates- the standard was not based on actual historical


                                            4
                                       UNCLASSIFIED
                                             UNCLASSIFIED 



averages. Further, employees were not required to reimburse the Department for copayments
because MED did not consider the copayment amounts worth pursuing and pursuing these
amounts was not authorized by the FAM.

Lack of Documentation Resulted in the Cancellation and Waiver of Overseas
Hospitalization Debts

For FYs 2004-2008, expenditures for overseas hospitalizations averaged approximately
$5.4 million, while reimbursements to the U.S. Government averaged $4.8 million, or 89 percent
of the annual costs. Consequently, the net "cost" to the Government for the hospitalizations was
approximately $600,000 per year- some of this amount may yet be recouped. For FYs 2004­
2008, the Department wrote off $188,500 of hospitalization debt as uncollectible. In addition,
$402,366 remains in open medical accounts receivable, of which $87,300 was turned over to the
U.S. Treasury for collection and $92,000 was subject to payroll deductions.

OIG reviewed RM's documentation for 11 medical accounts receivable, totaling $144,757, of the
$188,500 that was written off between January and June 2010. In each case, the debt was
waived because an internal administrative review conducted by RM at the request of the debtor
determined that documentation could not be found to show whether the employee was provided
bills for the services or was informed of the debt in a timely manner to meet insurance company
filing requirements. RM determined that the employees had taken all the actions necessary to get
the claim paid and that the debts were legally without merit.

MED and RM officials informed OIG of actions taken that they believe addressed the issues of
open accounts receivable established prior to FY 2009 being waived or canceled. These actions
included following up on accounts receivable in a more timely manner and creating a contract
insurance analyst position, whose duties included reviewing explanations of benefits to ensure
that proper reimbursements were received.

Guidance on Reimbursement Is Open to Interpretation, Is Inconsistent, or Is Ambiguous

Ensuring that the Department receives adequate and timely reimbursement for overseas
hospitalizations is dependent on the employees themselves (those who are hospitalized or who
have eligible family members who are hospitalized) as well as on Department staff at post, in
MED, and in RM all fulfilling their responsibilities as defined in the FAM and other guidance.
However, OIG determined that the relative responsibilities of each entity were often open to
interpretation based on conflicting FAM sections or other guidance related to the same or similar
issues that were not updated concurrently and language that was inconsistent or ambiguous.

        Initial Determination of Debt

Although the FAM 6 appears to delegate MED responsibility for initial debt determination and
referral to RM for debt collection activities, the framework presented in 4 FAM 445.6 7 assigns
responsibility to post.

64 FAM 492 . 1 was effective on May 3, 2006, and 16 FAM 524c was effective on July 27, 2009.
74 FAM 445.6 was effective on Sept. 20, 20 10.


                                                  5
                                             UNCLASSIFIED
                                            UNCLASSIFIED



        Initiation of the Debt Collection Process

Regarding the initiation of debt collection, the FAM 8 states:

        RM/GFS/F/R [Bureau of Resource Management, Global Financial Services,
        Global Financial Operations, Office of Reports and Reconciliation] is the
        responsible office for collection of medical debts referred by [MED]. MED will
        submit appropriate documentation to RM/GFS/F/R and request that a medical
        accounts receivable be set up.

However, another section of the FAM 9 states that the post management officer of designee
should “[n]otify GFS/F/AR [Global Financial Services, Global Financial Operations, Accounts
Receivable Division] to bill the employee 30 days after being notified of payment by the health
carrier or after the 90 days cited in paragraph d of this section have elapsed.”

Documentation That Posts Are Required To Provide to the Office of Medical Services

Regarding documentation posts are required to provide to MED, the FAM 10 states:

        The management officer at post is responsible for submitting the following
        documents to the Office of Medical Services (MED) within 60 days from the time
        of the patient’s discharge from the treating facility:
            •	 A final accounting of medical expenses paid;
            •	 (2) A copy of Form DS-996, Medical Care at Government Expense,
                signed by the patient and the insured;
            •	 (3) A copy of the insurance claim form; and
            •	 (4) A copy of Form DS-3067, Authorization for Medical Services for
                Employees and/or Dependents, with a signed release authorizing MED to
                review the status of claim payments and release necessary information
                related to the claim.

However, there is no requirement in the FAM for MED to collect, review, or retain these
documents, and MED officials told OIG that the only document MED requires a post to submit
in practice is Form DS-3067.

        Release of Information Regarding a Claim

The FAM 11 refers to “a signed release authorizing MED to review the status of claim payments
and release necessary information related to the claim” to be included with Form DS-3067. A
MED official noted that section 12 of the form, which states, “I hereby authorize the Office of
Medical Services of the Department of State to obtain, for the Department’s files, the medical
report covering the service authorized,” is the signed release. However, OIG determined that

8
  16 FAM 524c, “Accountability for Payment of Medical Expenses.”

9
  4 FAM 445.6b(1)(e), “Recovering Medical Insurance Benefits–Post Collection and Remittance.”

10
   16 FAM 524d.

11
   16 FAM 524d(3).



                                                 6
                                            UNCLASSIFIED
                                                 UNCLASSIFIED 



this language merely facilitates MED's access to the record of medical services rendered and is
not legally sufficient for MED to receive all documentation necessary to review claims.

           Guidance Regarding the Payment of Medical Deductibles

Guidance on MED ' s intranet 12 pertaining to hospitalizations overseas states the following :

           If you are hospitalized then you are fully covered. One of the benefits of
           participating in MED ' s overseas medical program is that you won't end up paying
           for any hospitalization related bills except for personal incidental bills and any
           upgrade fees (private room instead of semi-private, for example). All medical
           cost related to the primary reason for hospitalization will be covered this way for
           up to one year.

However, MED ' s intranet link does not mention employee or patient responsibility for
deductibles.

           Recommendation 1. OIG recommends that the Office of Medical Services (MED)
           consult with the Office of the Legal Adviser and the Office of Resource Management as
           appropriate to reconcile guidance in the Foreign Affairs Manual (FAM) (including 4
           FAM 445,4 FAM 492, 4 FAM 493, 16 FAM 524, and 4 FAM 530) with information in
           MED standard operating procedures and MED intranet guidance regarding overseas
           hospitalizations and reimbursements to eliminate contradictions and ambiguity. FAM
           and MED guidance should be updated accordingl y.

           Office of Medical Services Response and OIG Reply: In its response, MED agreed
           with the recommendation, stating that it and RM will work with the Office of the Legal
           Adviser "to make sure reconciled information is available to patients." Based on the
           response, OIG considers this recommendation resolved and will close it pending review
           and acceptance of documentation showing that it has been implemented.

Office of Medical Services Did Not Have a Formal Expected Rate of Reimbursement

MED officials said that prior to January 20 I 0, when MED received communication from a post
indicating that all reimbursements related to a medical account receivable had been received and
that the reimbursements equaled at least 70 to 85 percent of the expenditures, MED would
consider the remaining amount to be its share as the secondary payer and recommend that RM
close the account receivable. However, MED did not have any formal guidance relating to the
target percentage used or procedures for recommending that a receivable be closed in MED' s
standard operating procedures. OIG's analysis of data provided by MED for FYs 2004- 2008
showed that the annual rate of reimbursement averaged 89 percent, which was above the 70 to 85
percent rate used by MED, thereby bringing into question the suitability of the informal range
used by MED.



12   MED's page titled "Hospitalizations," which was on the Department's intranet site as of August 22, 2011.


                                                      7

                                                 UNCLASSIFIED 

                                                 UNCLASSIFIED 



When MED began collecting patient deductibles in January 20 I 0, it also created a contract
position for an insurance analyst who would review policies to detect errors in insurance
payments to clientele, would police the new policy on deductibles, and would follow up and
respond to the MED client base on health insurance-rclated issues affecting hospitalization
collections. Analyses from MED ' s insurance analyst should have provided a more accurate
assessment than an arbitrary percentage target.

However, during the exit conference, MED officials stated that they were not going to continue
to fund that contract function because it was not cost effective to do so. Without the assessments
or a formal reimbursement rate target, however, MED has no assurance that it is not closing
accounts based on a rate that is too low or is applying a rate inconsistently and scttling for
reimbursements that are lower than those to which the Department is entitled.

         Recommendation 2. OIG recommends that the Office of Medical Services (MED)
         establish and implement a formal reimbursement rate target and policies and procedures
         to guide MED personnel in determining when to recommend to the Bureau of Resource
         Management that a medical account receivable be closed because the expected amount of
         reimbursement has been recovered.

         Office of Medical Services Response and OIG Reply: In its response, MED agreed
         with the recommendation and indicated that it would use 80 percent as a benchmark for
         collection purposes. Based on the response, OIG considers this recommendation
         resolved and will close it pending review and acceptance of documentation showing that
         it has been implemented.

Department Collects Deductibles but not Copayments

Effective January 1, 2010, MED implemented its policy to collect insurance deductibles l3 from
employees and their eligible family members. Previously, MED assumed responsibility for these
amounts as a secondary payer. Based on a review of data provided by MED for January through
September 2010, OIG determined that deductiblcs for overseas hospitalizations for that period
totaled about $18,000. Of that amount, $10,500 had been collected as of December 2010.

When MED implemented its policy to collect insurance deductibles from employees and their
eligible family members, it did not implement a policy to collect patient copayments 14-which are
a staple of many medical insurance policies and are applicable to inpatient care for some


13 U.S. Department of Labor, Bureau of Labor, Definition ofHealth Insurance Terms , defines a deductible as a
"fixed dollar amount during the benefit period- usuall y a year- that an insured person pays before the insurer starts to
make payments for covered medical services. Plans may have both per individual and fami ly deductibles. Some
plans may have separate deductibles for specific services. For example. a plan may have a hospitalization
deductible per admission. Deductibles may differ if services are received from an approved provider or if received
from providers not on the approved list."
14 Definition o/Health Insurance Terms defines copayment as a "form of medical cost sharing in a health insurance
plan that requires an insured person to pay a fixed dollar amount when a medical service is received. The insurer is
responsible for the rest of the reimbursement. There may be separate copayments for different services. Some plans
req uire that a deductible first be met for some spccific services before a copayment appl ies."


                                                           8
                                                 UNCLASSIFIED
                                                UNCLASSIFIED 



veterans J 5 receiving treatment from the Department of Veterans Affairs and active duty famil y
members under TRICARE J6 health coverage. MED officials said they were not collecting
copayments because the amounts are usually very small- $20 to $30- and that it was not cost
effective to collect the copayments. However, OIG does not see the process as entailing any
significantly additional cost or effort than MED is already expending to collect the deductibles.

OIG reviewed insurance policies for two companies under the Federal Employees Health
Benefits Plan- the Foreign Service Benefit Plan and Blue Cross Blue Shield. While the Foreign
Service Benefit Plan did not have copayments for providers outside the United States, Blue
Cross did have copayments for non-member inpatient hospitals and facilities . Blue Cross
copayments for the insured ranged from $150 per day (up to a total of$750) for member and/or
nonmember facilities under the basic option plan to a $250 to $350 copayment per admission for
the standard option plan.

Collecting copayments would reduce the funding necessary to support the overseas
hospitalization program and would require employees to make payments to the Department that
they would have to pay to providers in the United States. However, the FAM J7 states that the
U.S. Government's liability as a secondary payer is "limited to the scope of the underlying
policy and the co-pay amounts not covered by primary insurers." Consequently, OIG concluded
that the FAM provi sion would have to be revised in order to provide MED the authority to
collect copayments.

         Recommendation 3. OIG recommends that the Office of Medical Services (MED)
         consult with the Office of the Legal Adviser to determine whether MED has the authority
         to collect copayments for overseas hospitalizations from employees and their eligible
         family members. If MED does have the authority, it should develop and implement
         policies and procedures to collect the copayments.

         Office of Medical Services Response and OIG Reply: In its response, MED agreed
         with the recommendation and stated that it would "seek guidance from the Office of the
         Legal Adviser regarding whether MED has the authority to collect copayments for
         overseas hospitalization." Based on the response, OrG considers this recommendation
         resolved and will close it pending review and acceptance of documentation showing that
         it has been implemented.

This memorandum report is provided for your review and action. As indicated in response to the
individual recommendations, OIG considers all three recommendations resolved. They can be
closed pending OIG's review and acceptance of documentation showing that the recommended
actions have been taken.

Please provide your response to the report and information on actions taken or planned for the
three recommendations within 30 days of the date of this memorandum. Actions taken or


15 Factors such as income and disability limi t or reduce copayments. 

16 TRiCARE is the health care program serving Unifo rmed Service members, retirees, and th ei r fa mi lies world wide. 

17 16 FAM 531(2). 





                                                     9
                                                UNCLASSIFIED
                                       UNCLASSIFIED 


planned are subject to followup and reporting in accordance with the attached compliance
response information.

OIG incorporated your comments and RM 's comments as appropriate within the body of the
report and included them in their entirety as Attachments C and D, respectively.

OIG appreciates the cooperation and assistance provided by your staff during thi s audit. If you
have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
at (202) 663-0372 or Naomi Snell, Acting Director, Division of Human Capital and
Infrastructure, at (703) 284-2685 or by email at snelln@state.gov.

Attachments: As stated.

cc: MEDIEX ­
    MED/EX 

    MED/EX 

    CFO 

    RM -

    RMlEX ­




                                               10
                                       UNCLASSIFIED
                                       UNCLASSIFIED 


                                                                                  Attachment A

                                 Scope and Methodology

The Office ofInspector General (OIG) performed this audit survey to determine whether internal
controls were in place and were being implemented to ensure that insurance payments for
medical services rendered in overseas hospitalizations were reimbursed to the Department of
State. The survey was performed by the Office of Audits from August 20 I 0 through May 2011 ,
primarily at the Office of Medical Services (MED) in Washington, DC, and at the Bureau of
Resource Management's (RM) Global Financial Services (GFS) in Charleston, SC.

To obtain background information for the audit, OIG researched and reviewed (I) prior OIG and
General Accountability Office reports and (2) requirements contained in the Department's
Foreign Affairs Manual (F AM) and Foreign Affairs Handbook.

 OIG collected and analyzed related documentation and fiscal data for FY s 2004-2010 and
interviewed officials from MED and RM/GFS. The audit survey was performed in accordance
with generally accepted government auditing standards except that OIG did not assess the
accuracy, completeness, and reliability of the fiscal data or documentation provided by MED
and RM. However, conclusions and recommendations reached as a result of this survey were
not dependent upon these data. Moreover, had the survey progressed into the audit
implementation phase, the appropriate assessment of data quality would have been performed.

Based on the audit survey, OrG determined it was not prudent to proceed with the audit because
of the relatively low dollar amounts involved. Because OIG did not go beyond the audit survey
phase, it could not confirm what documentation was being maintained at posts. Instead, OIG
relied on documentation and information provided by MED and RM officials and the guidance
contained in the FAM. OrG also relied on MED to provide only those medical files relevant to
the audit survey objective because of the sensitive nature of the information contained in those
files . O[G provided a draft of this report to officials ofMED, RM, and the Office of the Legal
Adviser in June 2011.

Work Related to Internal Controls

       OIG performed procedures to gain an understanding of the internal control processes and
procedures related to the areas surveyed at MED and at RM/GFS's Global Financial Operations
Directorate, Accounts Receivable. Because the decision was made not to extend the audit
beyond the survey phase, OIG did not test the adequacy of internal controls as implemented.




                                               [1
                                      UNCLASSIFIED
                                                    UNCLASSIFIED



                                                                                                              Attachment B

   Overseas Hospitalization Expenditures and Collections for FYs 2004-2008
As indicated in Table 1, expenditures for Department of State overseas hospitalizations for FYs
2004-2008 were $26,829,627, while reimbursements (that is, collections) were $23,890,000, or
89 percent of expenditures. Consequently, the net “cost” to the U.S. Government as a secondary
payer for hospitalizations was $2,939,627–some of this amount may yet be recouped–but this
amount would be the Government’s net “cost” if, under a worst-case scenario, recoupment
measures were totally unsuccessful.

Table 1. Overseas Hospitalization Expenditures and Collections for FYs 2004-2008
                                                                   Secondary Payments                 Secondary
Fiscal                                                             by the Department.*             Payments as % of
Year           Expenditures                 Collections                                              Expenditures
 2004            $      4,502,829           $       3,760,000               $        742,829                          16.50
 2005            $      5,352,288           $       4,467,000               $        885,288                          16.54
 2006            $      4,855,373           $       4,236,000               $        619,373                          12.76
 2007            $      5,543,873           $       5,290,000               $        253,873                           4.58
 2008            $      6,575,264           $       6,137,000               $        438,264                           6.67
 Total           $     26,829,627           $      23,890,000               $      2,939,627                          10.96
Average          $      5,365,925           $       4,778,000               $        587,925                          10.96
* Secondary payments include funds written off; turned over to the Department of the Treasury for collection, subject to payroll 

deductions; and still open. They also include costs incurred beyond those reimbursed by insurance providers.

Source: OIG analysis of data provided by the Office of Medical Services.


Accounts Receivable Written Off, in Collection, and Still Open for FYs 2004-2008

Accounts receivable that were written off, turned over to the Department of the Treasury for
collection, or subject to payroll deductions for FYs 2004–2008 totaled $367,800. If recoupment
measures were totally unsuccessful and the entire $402,366 in accounts receivable that are still
open, as shown in Table 2, were written off as uncollectible, the new total would be $770,166.

Table 2. Medical Accounts Receivable Written-Off, Turned Over to the Department of the
Treasury for Collection, Subject to Payroll Deductions, or Still Open for FY’s 2004-2008
                                                    Turned Over                                                 WO, T,
                                                       to the                                                  PD, and
                                                    Department            Payroll                             SO as a %
 Fiscal        Amount           Written Off            of the            Deductions          Still Open       of Amount
 Year         Expended            (WO)              Treasury (T)           (PD)                 (SO)          Expended
 2004        $ 4,502,829           $    41,000           $     3,500       $      9,000      $     55,000               2.41
 2005        $ 5,352,288           $   141,000           $    17,200       $     46,000      $    202,000               7.59
 2006        $ 4,855,373           $     1,200           $    14,600       $     18,000      $     47,000               1.66
 2007        $ 5,543,873           $     5,300           $    52,000       $     19,000      $     72,000               2.68
 2008        $ 6,575,264           $         0           $         0       $          0      $     26,366               0.40
 Total       $ 26,829,627          $   188,500            $   87,300       $     92,000      $    402,366               2.87
Average      $ 5,365,925           $    37,700           $    17,460       $     18,400      $     80,473               2.87
Source: OIG analysis of data provided by the Office of Medical Services.




                                                         12
                                                    UNCLASSIFIED
                             UNCLASSIFIED 



                                                                               Attachment C

                                              United States Department of State
                                              Medical DireclOr
                                              Department of State! alit! rhe Ford';/I ,,"en-ice


                                              WlL'illillgCOII ,   D.C. 20520


                                              August 12, 201 1


UNCLASSIFIED 


MEMORANDUM 

TO:    OIG/lSP - Mr. Harold W. Geisel
               ~    .   / l ·i ,
FROM:       MED ­ fhd m 5S1V.. Yun. M.D.
                      , I,
SUBJECT: Draft Report on Audit Survey of Reimbursement to the
         Department of State for Overseas Hospitalization

During FY-2011, a team li'om your ortice.led by ;vlr. Basil Temkatin,
audited MED's Hospitalization Funding Reimbursement program. Per your
draft report dated June, 29, 2011, the ii)llowing is MED's respon se to your
recommendations:

Recommendation 1
OIG recommends that the Office of Medical Servic(!s (MED) consult with
the Office orthe Legal Advisor and the Office or Resource Management as
appropriate to reconcile guidance in the Foreign Affairs Manual (FAM)
(including 4 FAM 445, 4 FAM 492, 4 FAM 493. 16 FAM 524, and 4 FAM
530) with information in MED standard operating procedures and MED
intranet guidance regarding overseas hospitalizations'and reimbursements to
eliminate contradictions and ambigu ity. FAM and MED guidance should be
updated accordingly ."

MED Response
MED has reviewed OIO's Draft report. we realize some ambiguity with the
guidance prm'ided in 4 FA!"I 445 (Medical Expenses for American



                             UNCLASSiFIED




                                  13
                             UNCLASSIFIED
                            UNCLASSIFIED 





                             UNCLASSIFIED
                                 -2­

Employees and Eligible Family Members 9EFMS», 4 FAM 492 (Debt
Management), 4 FAM 493 (Collection Actions), 16 FAM 524
(Accountability for Payment of Medical Expenses), and 4 FAM 530 (This
FAM does not exist). MED agrees that the various FAM regulations need
reconciling. MED will work with Resource Management and the Office of
the Legal Advisor to make sure reconciled information is available to
patients.

Recommendation 2:
OIG recommends that the Office of Medical Services (MED) establish and
implement a formal reimbursement rate target and policies and procedures to
guide MED personnel in determining when to recommend to the Bureau of
Resource Management that a medical account receivable be closed because
the expected amount of reimbursement has been recovered.

MED Response
Based on work performed by a contractor, we have determined 80% is a
reasonable amount of insurance receivable to expect when a patient is
hospitalized overseas. We will use 80% as a benchmark to determine if an
account should be closed, remain open, or should be forwarded to Resource
Management for collection action.

Recommendation 3:
OIG recommends that the Office of Medical Services (MED) consult with
the Office of the Legal Advisor to determine whether MED has the authority
to collect copayments for overseas hospitalizations from employees and their
eligible family members. IfMED does have the authority, it should develop
and implement policies and procedures to collect the copayments."

MED Response
MED will seek guidance from the Office of the Legal Advisor and AFSA
regarding whether MED has the authority to collect co-payments for
overseas hospitalization.



                             UNCLASSIFIED 





                                 14 

                            UNCLASSIFIED 

                                     UNCLASSIFIED 



                                                                                          Attachment D



                                                       United States Department of State
                                                         Washillg/on. D.C   ]()5]()


                                                                    July 20, 20 II

UNCLASSIFIED
MEMORANDUM


TO:           OIG - I larold Geisel, OIG
                                            \tj)~kJ >
FROM:         R.\1/EX - Philip J. Schlatter (

SUBJECT:      Draft Report on Audit Survey of Reimbursement to the Department of State for
              Overseas Hospitalizations


Thank you for the opportunity to comment on the Draft Report on Audit Survey of
Reimbursement to the Department of State for Overseas Hospitali7.ations.

Resource Management has one comment concerning the Draft Report on Audit Survey of
Reimbursement to the Department of State for Overseas Hospitalizations. Here' s our
recommended replacement for the third paragraph on page 3:

       Using the information provided by the post, MED notifies the Bureau of Resource
       Management (RM) to establish an account receivable. RM then initiates a series of four
       notifications to the employee regarding reimbursement. The employee can contcst the
       existence of the debt and request an internal administrative review by the Deputy
       Assistant Secretary for Global Financial Services or his or her designee. If an
       administrative review is completed and a detennination is made that a valid debt   exisls~
       but the employee fails to make payment or approve payroll deductions, the debt is
       referred to Treasury for collection. Payroll deductions c.an only be instituted when the
       employee approves the deduction.

If you have any tcchnical questions please contact Shari Clark, Managing Director, Global
Financial Operations, GFS. All other questions should be directed to Tom Martin, RM/EX.




                                      UNCLASSIFIED 





                                                15 

                                      UNCLASSIFIED 

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
